INSPECTOR GENERAL’S SEMIANNUAL REPORT TO CONGRESS

         Appalachian Regional Commission
           October 1, 2008–March 31, 2009
April 2009


MEMORANDUM FOR                  THE FEDERAL CO-CHAIR

SUBJECT:                         Semiannual Report to Congress

In accordance with the requirements of the Inspector General Act Amendments of 1988, Public Law
100-504, and the Inspector General Reform Act of 2008, Public Law 110-409, I am pleased to submit
the Office of Inspector General Semiannual Report to Congress.

This Semiannual Report to Congress summarizes the activities of our office for the 6-month period
ending March 31, 2009. During this semiannual period, we did not issue reports to the Appalachian
Regional Commission although there are many projects in process that are due to be released soon.
During this period, the Inspector General continued to serve as representative of the Council of the
Inspectors General on Integrity & Efficiency (CIGIE).

The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of 1988,
provides that this report be forward to appropriate Congressional committees within 30 days and that
you provide whatever additional comments you consider appropriate.

I appreciate the Commission’s and your cooperation with the Office of Inspector General in the conduct
of our operations.




Clifford H. Jennings
Inspector General

Enclosure
                                      TABLE OF CONTENTS


                                                                                                                  Page

       Executive Summary                               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

       Purpose and Requirements of the OIG Semiannual Report                                     . . . . . . . . . . . iii

 I.    Introduction                                    .................................1

 II.   Background                                      .................................1

       Appalachian Regional Commission                 .................................1

       Office of Inspector General                     .................................5

III.   OIG Activity                                    .................................6

       Audits & Reviews                                .................................6

       Investigations                                  .................................7

       Other                                           .................................8

 IV. OIG Hotline                                       .................................9

 V.    Legislative & Regulatory Review                 .................................9


Appendices A.           Schedule of Reports Issued,
                        October 1, 2008 thru March 31, 2009

               B.       Schedule of Reports with Questioned or Unsupported Costs

               C.       Schedule of Reports with Recommendations that Funds be put to Better Use
                        and Summary of Management Decisions

               D.       Schedule of Reports with Recommendations that Funds be put to Better Use
                        and Summary of Management Actions

               E.       Definition of Terms Used




                                                   i
                                      EXECUTIVE SUMMARY



During this reporting period, the Office of Inspector General (OIG) worked on many projects ranging
from setting up an in-house recommendations data base to responding to requests for comments on
legislation. Further, the OIG took the steps necessary to implement P.L. 110-409, "The Inspector
General Reform Act of 2008.

At the time of this report, the 2008 financial statement audit has not been completed or issued because of
difficulties completing a reconciliation for a required footnote disclosure and because of inconsistencies
in federal parent-child reported results. In addition, during the audit we were made aware that ARC had
violated provisions of the Anti-deficiency Act.

A report on the conditions of ARC’s grant management system was issued (08-09) and noted several
concerns resulting in ten recommendations. System weaknesses described included: system security,
uncompleted system documentation and system functionality, poor system user interfaces, and data
inaccuracies. To derive a full picture of ARC grant control and guidance activity, an inspection is
currently being conducted which will include an evaluation of the adequacy of ARC’s grantee
monitoring activities. The report is in the discussion draft phase and will be released during the next
reporting period.

During the reporting period, the IG served on the Council of the Inspectors General on Integrity &
Efficiency (CIGIE). The OIG commented on legislation that affects the OIG as well as the entire IG
community.




                                                   ii
                            PURPOSE AND REQUIREMENTS OF THE
                  OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT


The Inspector General Act of 1978 requires the IG to keep the Federal Co-Chair and Congress fully and
currently informed about problems and deficiencies in the Commission's operations and the necessity for
corrective action. In addition, the Act specifies that semiannual reports will be provided to the Federal
Co-Chair by April 30 and October 31 and to Congress 30 days later.

The Federal Co-Chair may transmit comments to Congress along with the report but may not change
any part of the report. The specific requirements prescribed in the Act, as amended (Public Law 100-
504), are listed below.
                                            Reporting Requirements


Section 4(a)(2)     Review of legislation and regulations                                           Page 9

Section 5(a)(1)     Problems, abuses, and deficiencies                                              Page 6-7

Section 5(a)(2)     Recommendations with respect to problems, abuses, and deficiencies              Page 6-7

Section 5(a)(3)     Prior significant recommendations not yet implemented                           *

Section 5(a)(4)     Matters referred to prosecutive authorities                                     *

Section 5(a)(5)     Summary of instances where information was refused                              *
and    6(b)(2)

Section 5(a)(6)     Listing of audit reports showing number of reports and dollar value of          App A
                    questioned costs

Section 5(a)(7)     Summary of each particularly significant report                                 **

Section 5(a)(8)     Statistical table showing number of reports and dollar value of questioned      App B
                    costs

Section 5(a)(9)     Statistical table showing number of reports and dollar value of                 App C
                    recommendations that funds be put to better use and summary of
                    management decisions

Section 5(a)(10)    Summary of each audit issued before this reporting period for which no          *
                    management decision was made by end of the reporting period

Section 5(a)(11)    Significant revised management decisions                                        *

Section 5(a)(12)    Significant management decisions with which the Inspector General               *
                    disagrees

Section 5(b)(3)      Statistical table showing number of reports and dollar value of
                    recommendations that funds be put to better use and summary                  App D
                   of management actions

*       None.
**      See references to Sections 5(a)(1) and 5(a)(2) for discussion of significant reports.

                                                            iii
I.       INTRODUCTION

The Inspector General Act Amendments of 1988 (P.L. 100-504) provides for the establishment of an
Office of Inspector General (OIG) at 30 designated Federal entities, including the ARC. The ARC OIG
became operational on October 1, 1989, with the appointment of an IG and provision of budgetary
authority for contracted audit and/or investigation activities.


II.      BACKGROUND


         A.     APPALACHIAN REGIONAL COMMISSION

The Appalachian Regional Development Act of 1965 (P.L. 89-4) established the Appalachian Regional
Commission. The Act authorizes a Federal/State partnership designed to promote long-term economic
development on a coordinated regional basis in the 13 Appalachian States. The Commission represents
a unique experiment in partnership among the Federal, State, and local levels of Government and
between the public and private sectors. It is composed of the Governors of the 13 Appalachian States
and a Federal representative who is appointed by the President. The Federal representative serves as the
Federal Co-Chair with the Governors electing one of their numbers to serve as the States' Co-Chair.

     -   Through joint planning and development of regional priorities, ARC funds are used to assist and
         encourage other public and private resources to address Appalachia's unique needs. Program
         direction and policy are established by the Commission (ARC Code) with the vote of a majority
         of the State members and the affirmative vote of the Federal Co-Chair. Emphasis has been
         placed on highways, infrastructure development, business enterprise, and human resources
         programs.

     -   Administratively, the Office of the Federal Co-Chair, with a staff of 11, and the Commission,
         with a staff of 45, is responsible for ARC operations. The States maintain an Office of States'
         Representative (2 persons) that has primarily liaison responsibilities. All personnel are located in
         Washington, DC. The Commission staff's administrative expenses, including salaries, are funded
         jointly by Federal and State funds; the States' Representative staff is funded entirely by the
         States; and the Federal Office staff is funded entirely from Federal funds.

     -   The Commission's appropriation for FY 2009 is $75 million. ARC was reauthorized in October
         2008. In addition, Section 1101 of the Safe, Accountable, Flexible, and Efficient Transportation
         Equity Act: A Legacy for Users (SAFETEA-LU) provides annual authorizations of $470 million
         for construction of the Appalachian Development Highway System (ADHS), under Section 201
         of the 1965 Appalachian Regional Development Act, for a total of $2.35 billion over the five-
         year period, FY 2005 through FY 2009, from the Highway Trust Fund. Although these funds are
         derived from the Highway Trust Fund they remain under ARC's programmatic jurisdiction.




                                                      1
    Program funds are distributed to state and local entities in accordance with an allocation formula
    intended to provide fair and reasonable distribution of available resources. ARC staff has
    responsibilities for program development, policy analysis and review, grant development,
    technical assistance to States, and management and oversight.

-   In order to avail itself of federal agency expertise and administrative capability in certain areas,
    ARC often relies on other departments and agencies for program administration, especially with
    respect to highways and infrastructure projects. For example, the Appalachian Regional
    Development Act authorizes the Secretary of Transportation to administer the Commission's
    highway programs with the Commission retaining responsibility for priorities, highway
    locations, and fund allocations.


                        ARC ORGANIZATION CHART




                                                 2
3
4
       B.     OFFICE OF INSPECTOR GENERAL

The ARC OIG is an independent audit and investigative unit. An independent Inspector General who
reports directly to the Federal Co-Chair heads the OIG.

              Role and Authority

The Inspector General Act of 1978 (P.L. 95-452), as amended in 1988, states that the IG is responsible
for (1) audits and investigations; (2) review of legislation; and (3) recommendation of policies for the
purpose of promoting economy and efficiency in the administration of, or preventing and detecting fraud
and abuse in, the program and operations of the establishment. In this regard, the IG is responsible for
keeping the Federal Co-Chair and Congress fully informed about the problems and deficiencies in ARC
programs and operations and the need for corrective action. The IG has authority to inquire into all
ARC programs and activities that are federally funded. The inquiries may be in the form of audits,
surveys, investigations, personnel security checks, or other appropriate methods. The two primary
purposes of these inquiries are (1) to assist all levels of ARC management by identifying and reporting
problem areas, weaknesses, or deficiencies in procedures, policies, program implementation, and
employee conduct and (2) to recommend appropriate corrective actions.

              Relationship to Other Principal ARC Offices

The States’ and Federal Co-Chairs, acting together as the Commission, establish policies for ARC's
programs and its administration. These policies are codified in the ARC Code and implemented by the
Commission staff, which is responsible for monitoring project performance and providing technical
assistance as needed. The Federal Co-Chair, as the Federal fiscal officer, is responsible for the proper
use and protection of Federal funds, for ensuring compliance with applicable Federal laws and
regulations, and for taking appropriate action on conditions needing improvement, including those
reported by the OIG. The operations of the OIG neither replace established lines of operating authority
nor eliminate the need for the Commission offices to take reasonable measures to protect and enhance
the integrity and effectiveness of their operations. All Commission offices are responsible for
monitoring and evaluating the programs entrusted to them and reporting information or incidences
needing further audit and/or investigation to the IG.

              Funding and Staffing

The OIG funding level for FY 2009 is $489,000. Staffing consists of the Inspector General, an Assistant
Inspector General for Audit, and a confidential assistant. Grant review activities continue to emphasize
use of contracted services (e.g., independent public accounting firms or other OIG offices) supplemented
by programmatic and performance reviews directed by OIG staff. Investigative assistance is provided
by other OIG offices on an as-needed basis through memoranda of understanding. This approach is
deemed the most appropriate to date in view of the nature of ARC operations and limited resources.

In order to comply with P.L. 110-409, "The Inspector General Reform Act of 2008, the IG has submitted
a budget for FY 2010 that includes funding to reimburse other IG’s that will provide Counsel and
Investigative services via a Memorandum of Understanding. Future year funding requests will be
predicated on actual experience using this method.

                                                   5
III.    OIG ACTIVITY


        A.       AUDITS, REVIEWS AND INSPECTIONS

During the past reporting cycle, 8 reports were issued dealing with programs, grants and grantees. These
reports were issued during the previous semi-annual reporting period. Currently, we are conducting an
inspection* of grants issued and closed to evaluate the effectiveness of management’s guidance. Part of
the findings will require a review by OIG’s Counsel. We are currently in the process of establishing an
MOU with another OIG to support our legal needs. We have also engaged a contract auditor to evaluate
internal controls over selected areas of ARC operations. The audit will look at ARC operating practices
relative to its formalized policies, best practices and federal requirements. A second engagement will
look at performance metrics used in grant evaluations to determine their effectiveness at measuring grant
results consistent with ARC’s stated goals, per the Government Performance and Results Act.

During the past period, 5 audit reports have not been resolved that were issued in draft over a year ago.
One of these is virtually complete. The OIG is waiting for documentation for a stated policy that was
referenced in the response to the draft. The other 4 audits are of the same grantee. ARC management has
been working with the grantee to get an appropriate response to the report.

All issued reports can be found on the OIG website http://www.arc.gov/index.do?nodeId=2060 .

Requests for Information
We received and complied with 3 requests for information. CIGIE requested information for its annual
OIG profile update and compilation of statistics. The yearly compilation summarizes the results of audit
activities for of all federal OIG offices. Information provided concerns the dollar value of management
decisions related to questioned costs and funds put to better use and OIG recommendations related to
questioned costs. The House Committee on Oversight and Government Reform requested statistical
information for the period from 2001 through 2008. The request concerned the number of
recommendations issued and the number and amount of recommendation still open. We were also asked
to provide the 3 largest open recommendations by dollar amount and briefly explain what was
recommended. Lastly, we complied with a GAO request to review and provide information concerning a
survey on governance and the role of the inspector general. Their requests involved our office’s
allocation of resources and the number of open recommendations.

Audit of ARC's Grant Management System
We completed an audit of ARC’s grant management system during April 2008. The audit examined the
quality of data generated, its usage, and the processes and controls in place for its generation. The
system is a vital component for ARC’s grant management activities, and is meant to provide a tool for
both project managers and for management oversight. What we found was a system that had not been
fully completed and for which other priorities had taken precedence.

The system had data conversion errors, data entry errors, and internal data processing errors.
Additionally, inadequate resources had been allocated to ensure timely completion of the project and to
provide for system documentation. System access and security features were not controlled
*
       Inspections provide a process for reviewing, studying, analyzing, and evaluating programs (or activities) of a 
department or agency and for providing information and recommendations to management. Inspections are conducted 
subject to basic general and qualitative characteristics, which are much less prescriptive than are auditing requirements. 
 
                                                                 6 
appropriately and there was only a single person knowledgeable of the system internals, putting ARC
grant operations and other computer activities at unnecessary risk. Ten recommendations resulted from
the audit.

2008 Financial Statement Audit
The Appalachian Regional Commission's financial statements are audited by an outside independent
auditor. The OIG monitors the activities of the auditor to help ensure compliance with applicable
statutes, OMB guidelines, and auditing standards. Performance and Accountability Report submissions
to OMB, to include the financial statement audit, were required by November 17th for 2008. However,
because of a change in OMB reporting requirements for 2007 and ARC's unique relationship with other
agencies, ARC’s financial statements have not been issued.

Effective for fiscal years beginning in 2007, the parent agency (ARC in this situation) is required to
report on the use and status of funds transferred to the child agencies. This created two problems for
ARC which were not fully resolved (despite managements concerted efforts); getting activity and
balance reports in a timely fashion, and reconciling the information with previously processed data.

Another difficulty in meeting OMB’s filing deadline was difficulty reconciling a required footnote
disclosure, In addition, during the course of the audit, we became informed about violations of the Anti-
deficiency Act.

Peer Review
Offices of Inspectors General (OIGs) are required to perform (and undergo) reviews of other OIG
offices every three years to ensure policies and/or procedural systems are in place that provide
reasonable assurance of compliance with auditing standards and policies. ARC completed a peer review
of the Federal Election Commission OIG and issued a report on its system of quality controls on March
28, 2008. During this period, new guidance was issued by the CIGIE. We will be reviewing these
changes in preparation for the peer review of our office that will be conducted by the Postal Regulatory
Commission, as well as for the review we will conduct in 2012 of the Election Assistance Commission.

In-process Audits
Audits were substantially completed for five grant projects but await management responses for
issuance. The audits were conducted for projects in West Virginia and Alabama and concern
telecommunications and childhood development. The purposes of the audits were to determine that
funds were expended in accordance with the grant requirements: including reporting, accounting and
expenditure regulations, and the objectives of the grant were being met. Audit findings included:
inadequately documented expenses, improper location of projects, untimely and inaccurate report
submittals, and lack of implementation to detect substandard contractors/or other parties.


       B.      INVESTIGATIONS

The Inspector General Act of 1978, as amended, provides that the IG may receive and investigate
complaints or information concerning the possible existence of an activity constituting a violation of
law, rules, or regulations; mismanagement; gross waste of funds; or abuse of authority. The OIG does
not employ criminal investigators. When the need has arisen, the matter has been referred to the

                                                    7
Federal Bureau of Investigation or assistance was contracted with another Federal OIG. Also, the results
of investigations may be referred to the appropriate Federal, State, or local prospective authorities for
action.

As a result of the computer security review performed by the DHS OIG, an investigation was opened
and certain personnel actions taken. The investigation is still awaiting the resolution of a referral to
another law enforcement agency. ARC itself has taken all necessary actions resulting from the audit and
subsequent investigation.

Previously, the OIG referred a case involving ARC funding to the Tennessee Valley Authority’s OIG for
investigation. The investigation is still ongoing.

During this period the OIG made a referral to the Ethics Commission of one of ARC’s member states.


C.     OTHER

OIG Policy Manual
During this period and for the next several months, ARC-OIG will continue to be involved in re-writing
its policy manual. The manual is being updated to reflect changes made to generally accepted
governmental auditing standards and other issues affecting our operating environment. Of special
consideration are recent changes related to internal controls, fraud, ethical issues, and computerization of
the audit process.

Electronic Audit Workpapers
ARC-OIG is aware of the benefits of electronic work papers for improving audit efficiency. In
particular, we believe that an improved indexing, and numbering system, together with an improved
supervisory review structure could be beneficial. We have recently reviewed some electronic work
papers systems and are continuing to gather information in anticipation of the purchase of the most
effective system for our use. We continue to explore ways to join with other small OIGs to bring down
acquisition costs.

Recommendation Tracking Database
ARC-OIG has implemented a recommendation tracking database. The design of the database and
customization for ARC-OIG’s use was provided by another OIG for which we are grateful. We are
continuing to modify its structure for our unique needs and believe it will be very effective in improving
our processes.

Implementation of OIG Reform Act
During this period the OIG has implemented all of the requirements of P.L. 110-409, The Inspector
General Reform Act of 2008, except for the ability to receive anonymous tips from the OIG website.
Currently, ARC’s website also hosts the OIG webpage. The ARC website is undergoing a major change
and the anonymous reporting feature will not be available until the new site is working.

Going Green
ARC management has implemented green measures within the organization's internal operations. For
example, a document scanning system has been linked to ARC’s e-mail system. Management, in a
                                                 8
written response to our draft report on ARC's grant management system stated, “We have had
preliminary discussion with our state partners about the need to move to a paperless application process,
and will pursue this more vigorously within this fiscal year.”

Reduction in paper utilization can reduce cost, improve the timeliness of management decisions through
better document storage and retrieval, and helps to reduce demands on our earth's ecological systems.

Our office, in alignment with management's initiative, is committed to “going green” and we will
attempt in future periods to issue our communications, and perform and transmit more work
electronically, e.g., reports, including semiannual reports, audit reports from contracted auditors, and
audit workpapers will be issued or maintained electronically, to the extent possible.


IV.    OIG HOTLINE

A region wide toll-free hotline was previously established to enable direct and confidential contact with
the ARC OIG in line with governmental and longstanding OIG initiatives as identified in the IG Act of
1978; to afford opportunities for identification of areas subject to fraud, waste, or abuse. However,
contacts with the ARC OIG relative to public complaints or concerns continue to be primarily received
through ARC staff, on regular OIG phone lines, or from other OIG offices.

Also, numerous hotline calls were received with respect to matters for which other agencies have
jurisdiction. This resulted primarily from the ARC OIG hotline apparently being the first such OIG
listing in some telephone directories, resulting in ARC OIG being contacted by citizens who did not
know the appropriate agency for handling their concerns. The ARC OIG facilitated the complaint
process by identifying the applicable agency based on complainant information and providing the
correct OIG hotline number.

V.     LEGISLATIVE AND REGULATORY REVIEW

Primary efforts in this area continued to be related to potential legislative initiatives with respect to OIG
operations. The ARC OIG continues to support legislation that would provide improved protections for
IGs, including appointee and career IGs, by consideration of alternatives such as removal for cause
criteria and term limits, as well as, the prohibition of acceptance of bonuses. The majority of legislative
reviews are performed by the CIGIE legislation committee, which forwards the consensus remarks to
the appropriate bodies. Comments were provided on various pieces of proposed legislation, including
the Inspector General Reform Act of 2008, which was passed and sent to the President for signature.




                                                     9
                                                       APPENDIX A


SCHEDULE OF AUDIT, INSPECTION AND EVALUATION REPORTS
       ISSUED OCTOBER 1, 2008 TO MARCH 31, 2009
                                                                            APPENDIX B



            SCHEDULE OF AUDIT, INSPECTION AND EVALUATION REPORTS WITH
                        QUESTIONED OR UNSUPPORTED COSTS      ($ in thousands)


                                           No. of    Questioned   Unsupported
                                           Reports      Costs        Costs

A.   For which no management decision         2       $ 352            $0
     was made by the commencement of
     the reporting period

B.   Which were issued during the             0       $ 0              $0
     reporting period

     Subtotals (A + B)                        2       $ 352            $0

C.   For which a management decision
     was made during the reporting
     period

     (i)      dollar value of disallowed      0       $ 0             $ 0
              costs



     (ii)     dollar value of costs not       0       $ 0             $ 0
              disallowed

D.   For which no management decision        2        $ 352            $0
     has been made by the end of the
     reporting period

E.   Reports for which no management         2        $ 352            $0
     decision was made within 6 months
     of issuance
                                                                                             APPENDIX C


          SCHEDULE OF AUDIT, INSPECTION AND EVALUATION REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE AND SUMMARY OF
                            MANAGEMENT DECISIONS




                                                                No. of      Dollar Value
                                                                Reports   ($ in thousands)

A.     For which no management decision was made by the            0           $0
       commencement of the reporting period

B.     Which were issued during the reporting period               0           $0

       Subtotals (A + B)                                           0           $0

C.     For which a management decision was made during the
       reporting period

       (i)      dollar value of recommendations that were
                agreed to by management

                --based on proposed management action              0           $0

                --based on proposed legislative action             0           $0


       (ii)     dollar value of recommendations that were not      0           $0
                agreed to by management



D.     For which no management decision has been made by the       0           $0
       end of the reporting period

E.     Reports for which no final management decision was          0           $0
       made within 6 months of issuance
                                                                            Appendix D

        SCHEDULE OF AUDIT, INSPECTION AND EVALUATION REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE AND SUMMARY OF
                            MANAGEMENT ACTIONS     ($ in thousands)
                                                                       Amounts
                                                         Amounts     Agreed to by
                                           Number of   Recommended   Management
                                            Reports       by OIG     (Disallowed)

              OIG Audit
               Reports

A.     For which final action by              0           $   0         $     0
       management had not been taken
       by the commencement of the
       reporting period

B.     On which management decisions          0           $ 0          $    0
       were made during the reporting
       period

C.     For which final action was taken
       by management during the
       reporting period

       (I)    Dollar value of                 0           $   0         $ 0
              recommendations that
              were actually completed


       (ii)   the dollar value of             0           $   0         $ 0
              recommendations that
              management has
              subsequently concluded
              should not or could not be
              implemented or
              completed

 D.      For which no final action had        0            $ 0         $ 0
         been taken by the end of the
         reporting period
                                                                                          APPENDIX E



                                  DEFINITIONS OF TERMS USED


The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                       A cost which the Office of Inspector General (OIG) questioned
                                      because of an alleged violation of a provision of a law, regulation,
                                      contract, or other agreement or document governing the
                                      expenditure of funds; such cost is not supported by adequate
                                      documentation; or the expenditure of funds for the intended
                                      purpose is unnecessary or unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was not
                                      supported by adequate documentation at the time of the audit.

Disallowed Cost                       A questioned cost that management, in a management decision,
                                      has sustained or agreed should not be charged to the Commission.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be used
                                      more efficiently if management took actions to implement and
                                      complete the recommendation.

Management Decision                   Management's evaluation of the findings and recommendations
                                      included in the audit report and the issuance of a final decision by
                                      management concerning its response to such findings and
                                      recommendations, including actions concluded to be necessary.
                                      Interim decisions and actions are not considered final management
                                      decisions for the purpose of the tables in this report.

Final Action                          The completion of all management actions that are described in a
                                      management decision with respect to audit findings and
                                      recommendations. If management concluded that no actions were
                                      necessary, final action occurs when a management decision is
                                      issued.
       THE OFFICE OF INSPECTOR GENERAL

      APPALACHIAN REGIONAL COMMISSION

                serves American taxpayers

     by investigating reports of waste, fraud, or abuse

                 involving Federal funds.


                If you believe an activity is

     wasteful, fraudulent, or abusive of Federal funds,

                        please call

                  toll free 1-800-532-4611

  or (202) 884-7667 in the Washington metropolitan area


                        or write to:


                Office of Inspector General

            Appalachian Regional Commission

         1666 Connecticut Avenue, NW, Rm. 700

               Washington, DC 20009-1068


        Information can be provided anonymously.

Federal Government employees are protected from reprisal,

and anyone may have his or her identity held in confidence.
On the Cover:
Grandfather Mountain, Avery County, North Carolina
Photo courtesy of North Carolina Division of Tourism,
Film, and Sports Development




                            Appalachian Regional Commission

                                Office of Inspector General
                          1666 Connecticut Avenue, NW, Suite 700
                               Washington, DC 20009-1068
